February 15, 2007

SUSAN M. PLONKEY
VICE PRESIDENT, CUSTOMER SERVICE

STEPHEN M. KEARNEY
VICE PRESIDENT, PRICING AND CLASSIFICATION

SUBJECT:      Audit Report – Fiscal Year 2006 Financial Installation Audit – Business
              Mail Entry Units (Report Number FF-AR-07-090)

This report presents the results of our financial installation audit of statistically selected
business mail entry units for fiscal year 2006 (Project Number 06BD002FF000, formerly
Project Number 06XD002FF000). We conducted this audit in support of the audit of the
U.S. Postal Service’s financial statements.

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records, and, generally, the internal controls we examined
were in place and effective. However, we identified various internal control and
compliance issues related to managing customer accounts and eligibility requirements;
accepting, verifying, and clearing the mail; monitoring Special Postage Payment System
(SPPS) agreements and protecting Postal Service revenue; and following general
operating procedures.

We made recommendations to district management addressing the findings at each
installation. District management’s comments were responsive to our findings and
recommendations, and the actions taken or planned should correct the issues identified
at these installations. (See Appendix A for a list of those reports.)

In this report, we recommended the Vice President, Customer Service, and the Vice
President, Pricing and Classification, reinforce policies and procedures for managing
customer accounts and eligibility requirements; accepting, verifying, and clearing mail;
monitoring SPPS agreements; protecting Postal Service revenue; and following general
operating procedures. Management agreed with the findings and recommendation and
stated they will incorporate the information into their Business Mail Acceptance training
and communication efforts, which will include correspondence, Web casts, newsletters,
and the revised DM-109, Business Mail Acceptance, that was published in September
2006. Management’s comments and our evaluation of these comments are included in
the report.
We appreciate the cooperation and courtesies provided by your staff during the audits.
If you have any questions or need additional information, please contact
Darrell Benjamin, Director, Field Financial – Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: H. Glen Walker
    Lynn Malcolm
    Frederick J. Hintenach
    Stephen J. Nickerson
    Robert I. Galaher
    Deborah A. Kendall
Fiscal Year 2006 Financial Installation Audit –                        FF-AR-07-090
 Business Mail Entry Units


                                      TABLE OF CONTENTS

 Executive Summary                                                               I

 Part I

 Introduction                                                                   1

     Background                                                                 1
     Objectives, Scope, and Methodology                                         1
     Prior Audit Coverage                                                       3

 Part II

 Audit Results                                                                  4

 Customer Accounts and Eligibility Requirements                                 4
   Inactive Customer Advance Deposit Accounts Were Not Closed                   4
   Mailings Were Accepted at Nonprofit and Periodicals Rates Without            4
     Proper Authorization
   Master Trust Account Balances Were Not Reconciled or Monitored               5
   Periodicals Publication Procedures Were Not Followed                         5

 Mail Acceptance, Verification, and Clearance Procedures                        6
    Postage Statements Were Not Properly Completed                              6
    Required Acceptance, Verification, and Clearance Procedures Were            7
      Not Followed

 Special Postage Payment System Agreements and Revenue Protection               7
    Special Postage Payment System Agreement Procedures Were Not                7
     Followed
    Bypass Mail Log Was Not Established or Maintained                           8
    Business Mail Annual Fees Were Not Collected                                8
    Missing Postage Statements Were Not Monitored                               8

 General Operating Procedures Were Not Followed                                 9
 Recommendation                                                                10
 Management’s Comments                                                         10
 Evaluation of Management’s Comments                                           10

 Appendix A. Business Mail Entry Units Audited and Reports Issued              11
             Nationwide
Fiscal Year 2006 Financial Installation Audit –                     FF-AR-07-090
 Business Mail Entry Units



 Appendix B. Audit Results, Statistical Sampling, and Projections           14

 Appendix C. Management’s Comments                                          18
Fiscal Year 2006 Financial Installation Audit –                                                        FF-AR-07-090
 Business Mail Entry Units


                                       EXECUTIVE SUMMARY
    Introduction                   This report summarizes the results of the fiscal year 2006
                                   audits we conducted at 102 business mail entry units
                                   (BMEU). The Postal Reorganization Act of 1970 requires
                                   annual audits of the U.S. Postal Service’s financial
                                   statements. The overall objectives of our audits were to
                                   determine whether financial transactions at BMEUs were
                                   reasonably and fairly presented in the accounting records
                                   and whether internal controls were in place and effective at
                                   the units. This report summarizes the results of our BMEU
                                   audits.

    Results in Brief               Based on the items we reviewed, financial transactions
                                   were reasonably and fairly presented in the accounting
                                   records and, generally, the internal controls we examined
                                   were in place and effective. However, we identified various
                                   internal control and compliance issues related to managing
                                   customer accounts and eligibility requirements; accepting,
                                   verifying, and clearing the mail; monitoring Special Postage
                                   Payment System (SPPS) agreements and protecting Postal
                                   Service revenue; and following general operating
                                   procedures.1

    Summary of                     We made recommendations to district management
    Recommendations                addressing the findings at each installation. In this report,
                                   we recommended the Vice President, Customer Service,
                                   and the Vice President, Pricing and Classification, reinforce
                                   policies and procedures for managing customer accounts
                                   and eligibility requirements; accepting, verifying, and
                                   clearing mail; monitoring SPPS agreements; protecting
                                   Postal Service revenue; and following general operating
                                   procedures.

    Summary of                     Management agreed with the findings and recommendation
    Management’s                   and stated they will incorporate the information into their
    Comments                       Business Mail Acceptance training and communication
                                   efforts, which will include correspondence, Web casts,
                                   newsletters, and the revised DM-109, Business Mail
                                   Acceptance, that was published in September 2006.
                                   Management’s comments in their entirety are included in
                                   Appendix C.

1
 Appendix B contains the sample design, separate projections for each category with internal control deficiencies,
and detailed findings identified at each installation.




                                                          i
Fiscal Year 2006 Financial Installation Audit –                                FF-AR-07-090
 Business Mail Entry Units




 Overall Evaluation of            Management comments were responsive to our findings
 Management’s                     and recommendation.
 Comments




                                                  ii
Fiscal Year 2006 Financial Installation Audit –                                     FF-AR-07-090
 Business Mail Entry Units


                                           INTRODUCTION
 Background                       Beginning in fiscal year (FY) 2001, the U.S. Postal Service
                                  Office of Inspector General (OIG) assumed responsibility for
                                  conducting financial audits. These audits include reviews of
                                  revenue-generating units, such as business mail entry units
                                  (BMEU). We conduct these audits in support of the overall
                                  audit of the U.S. Postal Service’s financial statements.

                                  BMEUs are established for authorized business mailers to
                                  present business mailings. The Postal Service requires
                                  mailers to properly prepare all mailings, take them to an
                                  approved BMEU, and pay for them before they enter the
                                  mailstream, unless otherwise authorized by the Pricing and
                                  Classification Service Center (PCSC).

                                  Most mailings entered at BMEUs are presorted and receive
                                  a discounted rate. Presorting mail is a work-sharing
                                  incentive that offers discounted postage rates to customers
                                  in exchange for performing a portion of the work associated
                                  with mail processing. Unless business mailings are properly
                                  prepared to qualify for the discounts claimed, the Postal
                                  Service incurs increased processing costs.

                                  The PostalOne! system is the Postal Service’s primary
                                  system for recording business mail and Periodicals
                                  transactions. The PostalOne! system allows users to enter
                                  postage statements, deposits, and other financial
                                  transactions; and to retrieve reports necessary to manage
                                  the day-to-day business of their units. It also allows
                                  customers to submit postage statements and other
                                  information to the Postal Service through Web-based
                                  initiatives. In addition, the Postal Service implemented a
                                  national Business Mailer Support (BMS) database to
                                  monitor Special Postage Payment Systems (SPPS)
                                  agreements at all units. The Postal Service continuously
                                  updates the data to enhance oversight and effectiveness in
                                  this area.

 Objectives, Scope,               The objectives of our audits were to determine whether the
 and Methodology                  financial transactions of field operations were reasonably
                                  and fairly presented in the accounting records, and whether
                                  internal controls were in place and effective.




                                                  1
Fiscal Year 2006 Financial Installation Audit –                                                     FF-AR-07-090
 Business Mail Entry Units




                                  To accomplish our objectives, we conducted unannounced
                                  audit fieldwork from December 2005 through September
                                  2006 at 100 statistically selected sites that represented
                                  $4.2 billion in revenue for FY 2005. (Appendix A lists the
                                  100 statistically and two judgmentally selected sites.2) We
                                  randomly selected and reviewed business mail and
                                  Periodicals postage statements generated for specific
                                  reporting periods during FY 2006.

                                  We also reviewed authorizations for all nonprofit mailers
                                  and Periodicals publications. We observed mail
                                  acceptance, verification, and clearance processes and
                                  reviewed all SPPS agreements in effect at each BMEU. In
                                  addition, we reviewed operations at associated detached
                                  mail units (DMU).

                                  We traced recorded financial transactions to and from
                                  supporting documentation and assessed the reliability of
                                  computerized data by verifying the computer records to
                                  source documents. We used Postal Service instructions,
                                  manuals, policies, and procedures as criteria to evaluate
                                  internal controls and data reliability. We also evaluated
                                  whether management implemented the internal control
                                  structure over the financial reporting and safeguarding of
                                  assets as designed. We interviewed supervisors and
                                  employees and observed operations at the Postal Service
                                  sites.

                                  We conducted these audits from October 2005 through
                                  February 2007 in accordance with generally accepted
                                  government auditing standards and included tests of
                                  internal controls we considered necessary under the
                                  circumstances. We conducted the fieldwork for transactions
                                  that occurred in FY 2006. We discussed our observations
                                  and conclusions with management officials and included
                                  their comments where appropriate. We issued individual
                                  reports to management at each selected BMEU.




2
 Appendix A contains a listing of the 102 BMEUs selected. xxxxxxxxxxxxxxxxx, and xxxxxxxxxxxxxxxxxxxxxxxx,
were judgmentally selected BMEU sites and were not included in the nationwide statistically selected findings.



                                                        2
Fiscal Year 2006 Financial Installation Audit –                                    FF-AR-07-090
 Business Mail Entry Units




 Prior Audit Coverage             We evaluated all findings the OIG reported in FYs 2001
                                  through 2005 and the Postal Inspection Service provided in
                                  individual site reports from FYs 1999 through 2000. We
                                  reported the status of the OIG’s recommendations in the
                                  individual site reports to the district managers.




                                                  3
Fiscal Year 2006 Financial Installation Audit –                                                        FF-AR-07-090
 Business Mail Entry Units


                                             AUDIT RESULTS
                                   Based on the items we reviewed, financial transactions were
                                   reasonably and fairly presented in the accounting records
                                   and, generally, the internal controls we examined were in
                                   place and effective. However, we identified various internal
                                   control and compliance issues related to managing
                                   customer accounts and eligibility requirements; accepting,
                                   verifying, and clearing the mail; monitoring SPPS
                                   agreements and protecting Postal Service revenue; and
                                   following general operating procedures.3 We discuss these
                                   areas below.

    Customer Accounts              We reported overall compliance issues related to customer
    and Eligibility                accounts and eligibility requirements. Specifically, we
    Requirements                   reported issues related to inactive customer advance
                                   deposit accounts; mailings accepted at Nonprofit and
                                   Periodicals rates; master trust account balances; and
                                   Periodicals publication procedures.

    Inactive Customer              At 52 BMEUs, technicians did not follow required
    Advance Deposit                procedures to close 762 inactive customer accounts totaling
    Accounts Were Not              $755,393.4 Technicians should have either refunded
    Closed                         requested balances to customers or transferred balances to
                                   miscellaneous non-postal revenue. This occurred because
                                   employees were unaware of or did not fully understand the
                                   requirements. There is an increased risk that someone
                                   could tamper with inactive accounts and improperly disburse
                                   funds when units do not follow procedures.

    Mailings Were                  At eight BMEUs, employees accepted mailings at the
    Accepted at Nonprofit          Nonprofit Standard Mail rate for 45 mailers who did not have
    and Periodicals Rates          authorization from the PCSC to mail at the reduced rate.5
    Without Proper                 There was a difference of $3,394 between the standard rate
    Authorization                  and Nonprofit rate. This occurred because of time
                                   constraints or other priorities. In addition, employees at
                                   five BMEUs accepted mailings at the Periodicals rate for




3
  Appendix B contains the sample design, separate projections for each category with internal control deficiencies,
and detailed findings identified at each installation.
4
  Handbook F-1, Post Office Accounting Procedures, Section 631.2, November 1996 (updated with Postal Bulletin
revisions through June 9, 2005) and Domestic Mail Manual (DMM) 300, Mailing Standards for the U.S. Postal
Service, Sections 707.29.3.3 and 707.29.5.1, updated November 9, 2006.
5
  DMM 300, Section 703 and Publication 417, Nonprofit Standard Mail Eligibility, Section 3-1.6.3, October 1996.



                                                          4
Fiscal Year 2006 Financial Installation Audit –                                                     FF-AR-07-090
 Business Mail Entry Units


                                  10 mailers who did not have authorization to mail at the
                                  reduced rate.6 This occurred because employees were
                                  unaware of or did not fully understand the requirements.
                                  There was a difference of $29,478 between the standard
                                  rate and Periodicals rate the customers were charged. The
                                  Postal Service loses revenue when mailers receive
                                  discounted rates without approval.

    Master Trust Account          At 19 BMEUs, unit personnel did not reconcile over
    Balances Were Not             $263,000 in differences between master trust balances and
    Reconciled or                 balances maintained in the Accounting Data Mart.7
    Monitored                     Employees said they did not know how to perform this task.
                                  The Postal Service has an increased risk that financial
                                  records will misstate assets, liabilities, and revenue when
                                  units do not reconcile master trust account balances.

                                  Further, at seven BMEUs, employees did not monitor
                                  customer trust accounts and accepted mailings from
                                  accounts that did not have sufficient funds to cover the
                                  mailings.8 This occurred because management provided
                                  insufficient oversight. The Postal Service is at risk of
                                  revenue loss when it does not properly monitor trust
                                  accounts and customers do not pay postage before mailings
                                  are processed.

    Periodicals Publication       BMEU employees did not always monitor customers to
    Procedures Were Not           ensure they met the requirements to receive Periodicals
    Followed                      rates. Employees stated they did not follow Periodicals
                                  policies primarily because they were unaware of or did not
                                  fully understand the requirements. The Postal Service has
                                  less assurance that publications meet required standards for
                                  reduced Periodicals rates when units do not conduct annual
                                  reviews and publishers do not submit Postal Service (PS)
                                  Forms 3526, Statement of Ownership, Management, and
                                  Circulation. As a result, the Postal Service could experience
                                  a loss of revenue. Specifically:

                                  •    At 25 units, employees did not conduct required annual
                                       advertising percentage reviews for Periodicals
                                       publications.9

6
  DMM 300, Sections 707.5.2.1 and 707.8.3.4.
7
  PostalOne! Reconciliation Instructions for Balancing with SAFR, Reconciliation Process, March 23, 2006 and
Handbook F-1, Section 512.4.
8
  Handbook F-1, Section 512.22.
9
  DMM 300, Sections 707.17.4.4 and 707.17.4.5.



                                                         5
Fiscal Year 2006 Financial Installation Audit –                                                  FF-AR-07-090
 Business Mail Entry Units



                                 •    At 24 units, employees did not conduct required annual
                                      postage payment/zone accuracy reviews.10

                                 •    At 10 units, employees did not input publisher data from
                                      PS Form 3526 to PostalOne!.11 Moreover, at nine units,
                                      employees did not fill out the form correctly or timely.12

                                 •    At five units, employees did not conduct eligibility reviews
                                      for publishers who filed PS Forms 3526 with a
                                      paid/requested circulation of 60 percent or less, as
                                      required by Postal Service policy.13

 Mail Acceptance,                We reported overall compliance issues related to mail
 Verification, and               acceptance, verification, and clearance procedures.
 Clearance                       Specifically, we reported issues related to postage
 Procedures                      statement completion, and mail acceptance, verification, and
                                 clearance.

 Postage Statements              Employees did not properly complete permit and Periodicals
 Were Not Properly               postage statements, as required.14 There were several
 Completed                       reasons why employees did not follow the policies,
                                 including: insufficient management oversight, time
                                 constraints, or other job priorities. As a result, the Postal
                                 Service has less assurance that mailings BMEUs accept
                                 and release meet standards. Specifically:

                                 •    At 37 units, employees did not complete all Postal
                                      Service sections of the postage statements.

                                 •    At 34 units, employees did not verify that mailers
                                      completed their sections of the postage statement.

                                 •    At 29 units, it took employees between 3 and 52 days to
                                      post the revenue to mailers’ accounts.




10
   Handbook DM-109, Business Mail Acceptance, Chapter 6, Sections 692.1 and 692.5, September 2006.
11
   Management letter from Postal Service Headquarters, dated September 30, 1998.
12
   Handbook DM-203, Periodicals Eligibility Review, Section 1-3.1a, September 2000 and DMM 300, Sections
707.8.3.1 and 707.8.3.4.
13
   Handbook DM-203, Section 1-1 and Handbook DM-109, Chapter 6, Section 691.1.
14
   Handbook DM-109, Chapter 3.



                                                       6
Fiscal Year 2006 Financial Installation Audit –                                        FF-AR-07-090
 Business Mail Entry Units



                                   •   At 14 units, employees did not round stamp and sign the
                                       postage statements.

 Required Acceptance,              At 33 BMEUs and four associated DMUs, personnel did not
 Verification, and                 always follow required acceptance, verification, and
 Clearance Procedures              clearance procedures for mailings.15 Employees did not
 Were Not Followed                 follow the policies because they were unaware of or did not
                                   fully understand the requirements. This reduces the Postal
                                   Service’s assurance that the condition of mailings the units
                                   accept meets standards and that customers pay the
                                   appropriate postage fees. During our reviews, we observed:

                                   •   Employees did not verify the contents were eligible for
                                       rates claimed by opening and examining one of the
                                       mailpieces, except First-Class™.

                                   •   Employees did not always verify that publishers provided
                                       associated postage statements prior to accepting and
                                       processing Periodicals mailings.

                                   •   Employees did not sign and date PS Forms 3607,
                                       Weighing and Dispatch Certificate; provide copies to the
                                       customer; or include copies with mailings staged for
                                       Operations.

                                   •   Employees did not randomly check the size and legibility
                                       of labels, verify that annual mailing fees were paid and
                                       sufficient funds were on deposit, or determine whether
                                       the mailer sorted the mail to the appropriate level and
                                       used barcoded tray/sack labels for automation mailings.

 Special Postage                   We reported overall compliance issues related to SPPS
 Payment System                    agreements and revenue protection. Specifically, we
 Agreements and                    reported issues related to SPPS agreement procedures;
 Revenue Protection                bypass mail logs; annual business mail permit fees; and
                                   missing postage statements.

 Special Postage                   BMEU employees did not review and monitor SPPS
 Payment System                    agreements, as required. When SPPS agreements are not
 Agreement Procedures              valid or mailers’ systems do not produce qualified mail
 Were Not Followed                 consistent with standards and regulations, the Postal
                                   Service may lose revenue. Specifically, we found:

15
     Handbook DM-109, Chapter 3.



                                                     7
Fiscal Year 2006 Financial Installation Audit –                                                      FF-AR-07-090
 Business Mail Entry Units



                                  •    At 11 units, employees did not verify that agreements
                                       were complete, valid, and current.16 Employees stated
                                       this occurred because the resources needed to perform
                                       the task were not available.

                                  •    At seven units, employees did not always ensure mailers
                                       complied with the terms of the agreements.17 For
                                       example, employees did not perform weekly
                                       comparisons of an Optional Procedure Mailing System
                                       mailer's records to unit records, verify any mailings from
                                       a manifest mailer, complete the Quarterly Manifest
                                       Mailing System Accuracy Worksheet, or perform
                                       subsequent required verifications when a mailing did not
                                       meet the prescribed accuracy levels. Employees said
                                       this occurred because they were unaware of or did not
                                       fully understand the requirements.

 Bypass Mail Log Was              At 11 BMEUs, employees did not establish, monitor, or
 Not Established or               maintain a Bypass Mail Log on mailings authorized to mail at
 Maintained                       the units.18 These mailings entered into the mailstream
                                  without proper acceptance and verification. Employees said
                                  this occurred because they were unaware of or did not fully
                                  understand the requirements. The Postal Service is at risk
                                  of not collecting all associated revenue from customers
                                  when mail bypasses BMEU acceptance procedures.

 Business Mail Annual             At nine BMEUs, employees accepted mailings from
 Fees Were Not                    customers who had not paid their annual fees.19 As a result,
 Collected                        business mailers were allowed to mail with expired permits.
                                  This occurred because management provided insufficient
                                  oversight. The Postal Service will not realize all revenue if
                                  employees do not collect annual fees.

 Missing Postage                  At five BMEUs, employees did not monitor breaks in
 Statements Were Not              Periodicals publishing frequencies to determine whether
 Monitored                        postage statements were missing.20 This occurred primarily
                                  because employees were unaware of or did not fully
                                  understand the requirements. The Postal Service is at risk

16
   DMM 300, Sections 705.2.4.6, 705.3.2, 705.4.2, and 705.5.1.10.
17
   Publication 401, Guide to the Manifest Mailing System, Chapters 3 and 9, June 2002 and Publication 407, Optional
Procedure Mailing System, January 2003.
18
   Handbook DM-109, Chapter 2, Section 247 and Chapter 3.
19
   Handbook F-1, Section 732 and Notice 123, Ratefold, page 14, effective January 8, 2006.
20
   DMM 300, Section 707.4.6.



                                                         8
Fiscal Year 2006 Financial Installation Audit –                                               FF-AR-07-090
 Business Mail Entry Units


                                 of not recognizing revenue when employees do not monitor
                                 for missing postage statements.

 General Operating               Business Mail Acceptance and Business Mailers support
 Procedures Were Not             personnel at U.S. Postal Service Headquarters requested
 Followed                        the OIG to review specific issues during our FY 2006 audits.
                                 Based on these requests, we identified issues concerning
                                 general operating procedures. When employees do not
                                 follow required operating procedures, the Postal Service has
                                 reduced assurance that the conditions of the accepted
                                 mailings meet standards and that customers pay the
                                 appropriate postage fees.

                                 •    Nine units did not have or provide a scale for weight
                                      verification, properly test the scale, or calibrate the scale
                                      on an annual basis.21 This occurred because employees
                                      were unaware of or did not fully understand the
                                      requirements.

                                 •    Nine units did not use the random selection list and Mail
                                      Evaluation Readability Lookup INstrument (MERLIN)
                                      worksheets for selecting trays of mail to verify on
                                      MERLIN, or always perform the verifications at the
                                      proper frequencies.22 Employees stated time constraints
                                      prevented them from following procedures.

                                 •    Five units did not maintain a current BMEU operating
                                      profile and six units did not maintain an operating profile
                                      for each DMU.23 Employees said this occurred because
                                      they were unaware of or did not fully understand the
                                      requirements.

                                 •    Mailers at two DMUs did not provide BMEU employees
                                      with an enclosed, secured work area or a telephone.24
                                      One employee stated he was not aware that mailers
                                      were required to provide an enclosed work area and
                                      could not provide a reason for technicians not having
                                      access to a telephone.



21
   Publication 407, Section 6-5 and Handbook DM-109, Exhibit 262.3 and Section 265.2.
22
   MERLIN Operations Training for Operators Manual, Course #57601-04, NSN 7610-05-000-4900, Appendix E,
January 2003 and Handbook DM-109, Section 335.
23
   Handbook DM-109, Section 231.
24
   Handbook DM-109, Section 262.2.



                                                     9
Fiscal Year 2006 Financial Installation Audit –                                       FF-AR-07-090
 Business Mail Entry Units




 Recommendation                  We recommend the Vice President, Customer Service, and
                                 the Vice President, Pricing and Classification:

                                      1. Reinforce policies and procedures for managing
                                         customer accounts and eligibility requirements;
                                         accepting, verifying, and clearing mail; monitoring
                                         special postage payment system agreements;
                                         protecting Postal Service revenue; and following
                                         general operating procedures.

 Management’s                    Management agreed with the findings and recommendation
 Comments                        and stated they will incorporate the information into their
                                 Business Mail Acceptance training and communication
                                 efforts, which will include correspondence, Web casts,
                                 newsletters, and the revised DM-109, Business Mail
                                 Acceptance, that was published in September 2006.

 Evaluation of                   Management’s comments are responsive to the
 Management’s                    recommendation. Management’s actions taken or planned
 Comments                        should correct the issues identified in the findings.




                                                   10
Fiscal Year 2006 Financial Installation Audit –              FF-AR-07-090
 Business Mail Entry Units



       APPENDIX A. BUSINESS MAIL ENTRY UNITS AUDITED AND
                  REPORTS ISSUED NATIONWIDE




                                                  Redacted




                                                  11
Fiscal Year 2006 Financial Installation Audit –              FF-AR-07-090
 Business Mail Entry Units




                                                  Redacted




                                                  12
Fiscal Year 2006 Financial Installation Audit –              FF-AR-07-090
 Business Mail Entry Units




                                                  Redacted




                                                  13
Fiscal Year 2006 Financial Installation Audit –                                                          FF-AR-07-090
 Business Mail Entry Units


                                                       APPENDIX B

     AUDIT RESULTS, STATISTICAL SAMPLING, AND PROJECTIONS

In support of the objectives, the audit team employed a stratified random sample of
BMEUs. The sample design allows statistical projection of the number of units having
the types of internal control deficiencies that were the subject of the audit. We made
separate projections for each category with internal control deficiencies. The audit
universe consisted of 2,042 BMEUs with revenues above $100,000. We obtained the
universe information from the Standard Field Accounting Unit Revenue Data Access
database.

We sampled 100 BMEUs as a stratified attributes design further allocated to each of
four revenue-based strata. The sample size of 100 is equivalent to that required to
achieve a 5 percent risk of over-reliance (Beta Risk) and a tolerable error rate of
5 percent allowing for one error for compliance testing.

We calculated the point estimate of the total number of deviations, as well as the
associated confidence interval. Based on the sample results, we project the following,
with a 95 percent confidence level:


                                                                 Sites
                                                               with the     Lower        Unbiased         Upper
                                                               Reported     Limit          Point          Limit
                                                                Finding   Estimate25     Estimate26     Estimate27
     Customer Accounts and Eligibility Requirements:
           The unit accepted mail at Nonprofit rates
                                                                    8        8 (0%)      194 (9.50%)    346 (16.95%)
                     without authorization.
      The unit accepted Periodicals mailings at Periodical
                                                                    5        5 (0%)       90 (4.43%)    224 (10.98%)
                  rates without authorization.

      The unit did not put PS Form 3526 into PostalOne!.            10     94 (4.59%)    225 (11.03%)   356 (17.46%)


     The unit did not verify that mailers filed PS Form 3526
                                                                    9        9 (0%)      184 (9.01%)    334 (16.34%)
                 correctly or in a timely manner.


          The unit did not conduct eligibility reviews.             5        5 (0%)       98 (4.79%)    226 (11.09%)


        The unit did not conduct postage payment/zone
                                                                    24    302 (14.80%)   467 (22.86%)   631 (30.92%)
         accuracy reviews or properly document them.


        The unit did not verify advertising percentages.            25    352 (17.25%)   530 (25.97%)   709 (34.70%)



25
   This is the lower limit estimate of the number of deviations (units) in which the condition may exist. When the lower
limit estimate is less than the number observed in the sample, the observed number is presented in the table as the
lower limit.
26
   This is the point estimate of the total number of deviations (units) in which the condition may exist.
27
   This is the upper limit estimate of the number of deviations (units) in which the condition may exist.



                                                               14
Fiscal Year 2006 Financial Installation Audit –                                                         FF-AR-07-090
 Business Mail Entry Units


                                                                Sites
                                                              with the     Lower        Unbiased         Upper
                                                              Reported     Limit          Point          Limit
                                                               Finding   Estimate25     Estimate26     Estimate27
         The unit did not close inactive business mail,
                                                                                           1,025          1,227
       Periodicals, or Business Reply Mail/Postage Due             52    822 (40.26%)
                                                                                         (50.18%)       (60.09%)
      advance deposit accounts and/or refund balances.


       The unit did not transfer funds from a Periodicals
       pending-denied customer account and recognize               1        1 (0%)       20 (0.99%)    131 (6.43%)
                    the amount as revenue.

        The unit did not reconcile master trust balances
            in Accounting Data Mart with balances                  19    240 (11.74%)   403 (19.75%)   567 (27.75%)
                      the unit maintained.
     The unit did not monitor customer trust accounts and
      accepted mailings from accounts that did not have            7        7 (0%)      134 (6.58%)    272 (13.30%)
             sufficient funds to cover the mailings.
       The unit did not have authorization letters on file
          allowing publishers to pay postage at the                1        1 (0%)       17 (0.83%)    125 (6.14%)
                      end of each month.
             Mail Acceptance, Verification, and
                   Clearance Procedures:
      The unit was missing business mail and Periodicals
                                                                   1        1 (0%)       26 (1.28%)    142 (6.94%)
                     postage statements.

      The unit did not verify that mailers completed their
                                                                   34    498 (24.40%)   694 (33.97%)   889 (43.54%)
    sections of the permit/business mail postage statement.


       The unit did not complete the U.S. Postal Service
                                                                   34    481 (23.58%)   675 (33.06%)   869 (42.54%)
    sections of the permit/business mail postage statement.

           The unit did not round stamp and sign the
                                                                   13    141 (6.89%)    284 (13.92%)   428 (20.96%)
                  permit postage statement.

     The unit did not correctly record required information
           from the permit/business mail postage                   3        3 (0%)       63 (3.10%)    189 (9.28%)
                   statement in PostalOne!.


      The unit did post data from the permit/business mail
       postage statement to the mailer's account within a          27    394 (19.32%)   577 (28.26%)   760 (37.20%)
                   reasonable amount of time.


    The unit did not use PS Form 6116, First-Class Metered
     Mail – Shortpaid Sampling Worksheet, when sampling            1        1 (0%)       26 (1.28%)    142 (6.94%)
                    First-Class metered mail.


        The unit did not verify that publisher/customers
          completed their sections of the Periodicals              11      11 (0%)      198 (9.69%)    351 (17.19%)
                      postage statement.

       The unit did not complete the U.S. Postal Service
        section for weight per copy on the Periodicals             12    113 (5.53%)    249 (12.20%)   385 (18.86%)
                      postage statement.
     The unit did not round stamp and sign the Periodicals
                                                                   4        4 (0%)      104 (5.12%)    240 (11.77%)
                       postage statement.




                                                              15
Fiscal Year 2006 Financial Installation Audit –                                                           FF-AR-07-090
 Business Mail Entry Units


                                                                  Sites
                                                                with the     Lower        Unbiased         Upper
                                                                Reported     Limit          Point          Limit
                                                                 Finding   Estimate25     Estimate26     Estimate27
    The unit did not post data from the Periodicals postage
          statement to the mailer's account within a                 17    230 (11.26%)   386 (18.88%)   541 (26.50%)
                  reasonable amount of time.


      During our observations, the unit did not accept mail
                                                                     33    518 (25.39%)   714 (34.98%)   910 (44.57%)
     according to Postal Service instructions at the BMEU.

              The unit accepted cash for mailings.                   4        4 (0%)       78 (3.80%)    203 (9.92%)

    The unit did not enter the MERLIN disqualified mailings
                                                                     4        4 (0%)       55 (2.70%)    174 (8.50%)
                 in the weekly MERLIN Report.


     The BMEU supervisor instructed a technician to enter
    his logon identification and password so the supervisor
                                                                     1        1 (0%)       17 (0.83%)    125 (6.14%)
             could access the MERLIN system to
                  perform mailer verification.



       The postmaster shared another employee’s logon
         identification and password in order to access              1        1 (0%)       26 (1.28%)    142 (6.94%)
     PostalOne! to enter postage statements in the system.


     During observations at DMUs, the unit did not accept
                                                                     4        4 (0%)       55 (2.70%)    174 (8.50%)
         mail according to Postal Service instructions.

    The mailer at the DMU used Postal Service equipment
                                                                     1        1 (0%)       17 (0.83%)    125 (6.14%)
                     without authorization.

        The unit did not follow Postal Service policies and
      procedures for controlling business mail accepted at
       Convenience Deposit Points (CDP) and forwarded
     to the unit for processing. For example, unit clerks did        2        2 (0%)       34 (1.66%)    146 (7.13%)
         not ensure that CDPs assigned to the unit sent
            daily BMEU dispatch logs and/or negative
                    response reports to the unit.

        SPPS Agreements and Revenue Protection:


     The unit did not have SPPS agreement authorizations
                                                                     11      11 (0%)      129 (6.33%)    258 (12.63%)
               on file or have current agreements.


    The unit did not always attach quality control standards
                                                                     2        2 (0%)       34 (1.66%)    146 (7.13%)
    to SPPS agreements or conduct quality control checks.


      The unit allowed a customer to become a manifest
     mailer without meeting minimum volume requirements
                                                                     1        1 (0%)       17 (0.83%)    125 (6.14%)
           and without an approved minimum volume
                      reduction program.

      The unit did not ensure the security of assets or the
                                                                     2        2 (0%)       43 (2.11%)    163 (7.97%)
                    safety of its employees.
      The unit did not comply with SPPS agreements and
                                                                     7        7 (0%)      125 (6.13%)    254 (12.44%)
                  value-added refund mailings.




                                                                16
Fiscal Year 2006 Financial Installation Audit –                                                        FF-AR-07-090
 Business Mail Entry Units


                                                                  Sites
                                                                with the     Lower      Unbiased        Upper
                                                                Reported     Limit        Point         Limit
                                                                 Finding   Estimate25   Estimate26    Estimate27
       The unit did not acquire and maintain exceptional
                                                                     1       1 (0%)      20 (0.99%)   131 (6.43%)
               dispatch support documentation.

          The unit released manifest mailings into the
                                                                     2       2 (0%)      43 (2.11%)   163 (7.97%)
               mailstream without verification.

     The district's business mail entry (BME) office did not
       conduct semiannual reviews of the operations of
                                                                     1       1 (0%)      17 (0.83%)   125 (6.14%)
            the Optional Procedures mailer and the
                     administering post office.


      The district’s BME office did not conduct an annual
                                                                     2       2 (0%)      46 (2.27%)   169 (8.26%)
            review of the Manifest Mailing System.

          The unit did not sample manifest mailings at
                                                                     1       1 (0%)      20 (0.99%)   131 (6.43%)
                   the prescribed frequency.

       District personnel authorized free pickup service for
     SPPS agreement mailers without determining whether
                                                                     2       2 (0%)      43 (2.11%)   163 (7.97%)
      the service was mutually beneficial to the mailer and
                       the Postal Service.

       The unit did not collect all pickup service fees due
                                                                     2       2 (0%)      34 (1.66%)   146 (7.13%)
                       the Postal Service.

     The unit did not use or maintain a Bypass Mail Log or
                                                                     11      11 (0%)    202 (9.89%)   353 (17.29%)
      have a process in place to identify bypassed mail.


    The unit did not monitor for missing Periodicals postage
                                                                     5       5 (0%)      75 (3.69%)   199 (9.74%)
                  statement/frequency breaks.

     The unit did not notify customers and/or PCSC when
              publishers did not meet their stated                   1       1 (0%)      17 (0.83%)   125 (6.14%)
                     publication frequency.
        The unit did not verify, collect, or record annual
                                                                     9       9 (0%)     168 (8.23%)   316 (15.47%)
                      business mail fees.

               General Operating Procedures:

           The unit did not maintain a current BMEU
                                                                     5       5 (0%)      97 (4.76%)   228 (11.18%)
                        operating profile.
         The unit did not maintain an operating profile
                                                                     6       6 (0%)     112 (5.46%)   241 (11.82%)
                        for each DMU.
    Mailers at DMUs did not provide BMEU employees with
                                                                     1       1 (0%)      1 (0.05%)    105 (5.13%)
       an enclosed, secured work area, or a telephone.
      The unit did not have or provide a scale for weight
      verification, properly test the scale, or calibrate the        9       9 (0%)     130 (6.36%)   258 (12.66%)
                    scale on an annual basis.
      The unit did not use the random selection list and
     MERLIN worksheets for selecting trays of mail to be
                                                                     9       9 (0%)     165 (8.07%)   311 (15.25%)
           verified on MERLIN or always perform the
             verifications at the proper frequencies.




                                                                17
Fiscal Year 2006 Financial Installation Audit –         FF-AR-07-090
 Business Mail Entry Units


                    APPENDIX C. MANAGEMENT’S COMMENTS




                                                  18
Fiscal Year 2006 Financial Installation Audit –        FF-AR-07-090
 Business Mail Entry Units




                                                  19
Fiscal Year 2006 Financial Installation Audit –        FF-AR-07-090
 Business Mail Entry Units




                                                  20
